TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        New Legislation Could Affect Filers
                         of the Report of Foreign Bank and
                         Financial Accounts, but Potential
                            Issues Are Being Addressed



                                      September 29, 2010

                              Reference Number: 2010-30-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


NEW LEGISLATION COULD AFFECT                         WHAT TIGTA FOUND
FILERS OF THE REPORT OF FOREIGN
                                                     The IRS, in collaboration with the Financial
BANK AND FINANCIAL ACCOUNTS, BUT                     Crimes Enforcement Network, has revised the
POTENTIAL ISSUES ARE BEING                           FBAR form and instructions, conducted
ADDRESSED                                            education and outreach efforts on the filing of
                                                     FBARs, increased the number of civil
                                                     examination closings dealing with FBARs, and
Highlights                                           increased the number of FBAR penalty
                                                     assessments and collections. From Calendar
Final Report issued on September 29,                 Years 2004 to 2009, the number of FBARs filed
2010                                                 with the IRS has increased 145 percent from
                                                     217,699 to 534,043. In addition, the recently
Highlights of Reference Number: 2010-30-125          passed new legislation added Internal Revenue
to the Internal Revenue Service Commissioner         Code Section 6038D, requiring an individual
for the Small Business/Self-Employed Division.       taxpayer with an aggregate balance of more
                                                     than $50,000 in foreign financial assets to file a
IMPACT ON TAXPAYERS                                  disclosure statement with his or her income tax
As a result of new legislation on foreign tax        return in addition to possibly being required to
reporting and disclosure of financial assets,        file an FBAR.
some taxpayers may be required to file the           WHAT TIGTA RECOMMENDED
Report of Foreign Bank and Financial Accounts
(FBAR) and the new foreign financial assets          TIGTA made no recommendations in this report.
disclosure statement with their income tax           However, IRS management officials reviewed
return. These reporting requirements will            the report prior to its issuance and agreed with
potentially add to both taxpayer burden and the      the facts and conclusions presented.
complexity of tax law changes. Specifically,
United States citizens, residents, and domestic
entities that have a financial interest in, or
signature authority or other authority over, a
foreign financial account that exceed $10,000 in
the aggregate at any time during the calendar
year are required to file the FBAR. New
legislation will require individual taxpayers with
an aggregate balance of more than $50,000 in
foreign financial assets to file a disclosure
statement with their income tax return. The
Internal Revenue Service (IRS) is working to
address the impact that the legislative
requirements have on United States citizens and
residents.
WHY TIGTA DID THE AUDIT
This audit was initiated as part of our Fiscal
Year 2010 Annual Audit Plan and addresses the
major management challenge of Globalization.
The overall audit objectives of this review were
to assess the policies and guidelines in place
over information gathered with the FBAR by the
Department of the Treasury and to determine
how the IRS is monitoring and improving
compliance with the FBAR filing.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2010


 MEMORANDUM FOR COMMISSIONER SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – New Legislation Could Affect Filers of the Report
                             of Foreign Bank and Financial Accounts, but Potential Issues Are
                             Being Addressed (Audit # 201030039)

 This report presents the results of our review to assess the policies and guidelines in place over
 information gathered with the Report of Foreign Bank and Financial Accounts (FBAR) by the
 Department of the Treasury and to determine how the Internal Revenue Service (IRS) is
 monitoring and improving compliance with the FBAR filings. This audit was conducted as part
 of our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Globalization.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review and provide comments on a draft of this report. IRS management did not
 provide us with any comments on the draft report. We intend to continue to follow the IRS’
 progression with addressing the FBAR reporting requirement and its impact on United States
 citizens, residents, and businesses. As appropriate, we will consider conducting a followup
 review in the future to ensure compliance with the law and regulations.
 Copies of this report are also being sent to the IRS managers affected by the report conclusions.
 Please contact me at (202) 622-6510 if you have any questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                     New Legislation Could Affect Filers of the
                                   Report of Foreign Bank and Financial Accounts,
                                     but Potential Issues Are Being Addressed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Is Engaged in Public and
          Employee Awareness Activities on the Filing of the Report
          of Foreign Bank and Financial Accounts...................................................... Page 4
          Actions Are Being Taken to Address Taxpayers’ Concerns With
          New Foreign Reporting Requirements ......................................................... Page 9

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Authoritative Aspects of the Report of
          Foreign Bank and Financial Accounts .......................................................... Page 17
          Appendix V – Comparison of 31 United States Code Section 5314 and
          Internal Revenue Code Section 6038D Provisions ....................................... Page 18
           New Legislation Could Affect Filers of the
         Report of Foreign Bank and Financial Accounts,
           but Potential Issues Are Being Addressed




                 Abbreviations

BSA        Bank Secrecy Act
CBRS       Currency Banking and Retrieval System
C.F.R.     Code of Federal Regulations
ECC        Enterprise Computing Center
FBAR       Report of Foreign Bank and Financial Accounts
FinCEN     Financial Crimes Enforcement Network
HIRE       Hiring Incentives to Restore Employment
I.R.C.     Internal Revenue Code
IRS        Internal Revenue Service
SB/SE      Small Business/Self-Employed
U.S.       United States
                                  New Legislation Could Affect Filers of the
                                Report of Foreign Bank and Financial Accounts,
                                  but Potential Issues Are Being Addressed




                                              Background

Congress passed the Bank Records and Foreign Transactions Act of 1970, commonly referred to
as the Bank Secrecy Act (BSA) of 1970,1 due to concerns about the growing use of secret foreign
bank accounts to hide income, manipulate United States (U.S.) securities markets, circumvent
insider trading rules, act as a depository for illegally acquired funds, and acquire control of U.S.
industries. The law was enacted because of the growing complexity of the national and
international economy and a technological revolution in white-collar crime where the activities
of white-collar criminals had increased using financial institutions at home and abroad. The
Department of the Treasury delegated authority to the Internal Revenue Service (IRS) for the
filing and enforcement of Section (§) 5314 of the BSA2 that requires citizens or residents of the
U.S. or a person in, or doing business in, the U.S. to file reports and keep records if they have a
financial interest in, or signature or other authority over, one or more financial accounts outside
the U.S. with an aggregate value greater than $10,000 at any time during the year. Thus, in
December 1970, the IRS created the first Report of Foreign Bank and Financial Accounts
(FBAR) form, originally named the U.S. Information Return on Foreign Bank, Securities, and
Other Financial Accounts (Form 4683), to assist taxpayers in complying with their compliance
responsibilities under the BSA on transactions with foreign financial institutions by filing it with
their returns.
As a result of the attempted misuse of the IRS and its authority during the Watergate scandal3
and other abuses of tax return and tax return information, Congress revised the law regarding the
confidentiality and disclosure of tax return and tax return information with the passage of the
Tax Reform Act of 1976,4 amending Internal Revenue Code (I.R.C.) § 6103. This revision made
fundamental changes in the treatment of tax return and tax return information that required
substantial modifications in the methods of filing and enforcement of the FBAR. Consequently,
after 1976, access to tax return and tax return information outside the IRS became highly
restricted under the new provisions of I.R.C. § 6103. In order for the Department of the Treasury
to maintain access to FBAR information for other criminal, tax, and regulatory investigations
and proceedings and to comply with the original intent of the 1970 BSA legislation, the
Department of the Treasury removed the foreign bank account report from the income tax return
and reissued and renamed U.S. Information Return on Foreign Bank, Securities, and Other

1
  Public Law (Pub. L) 91-508.
2
  31 United States Code (U.S.C.) Section (§) 5314 (2010).
3
  The Watergate scandal was a political scandal in the U.S. in the 1970s, resulting from the break-in to the
Democratic National Committee headquarters at the Watergate office complex in Washington, D.C. Effects of the
scandal ultimately led to the resignation of President Richard Nixon on August 9, 1974; the first, and so far only,
U.S. President to resign. It also resulted in the indictment and conviction of several Nixon administration officials.
4
  Pub. L. 94-455.
                                                                                                               Page 1
                                 New Legislation Could Affect Filers of the
                               Report of Foreign Bank and Financial Accounts,
                                 but Potential Issues Are Being Addressed



Financial Accounts (Form 4683) (the FBAR reporting mechanism from 1970 to 1976) to
Treasury Form Report of Foreign Bank and Financial Accounts (TD F 90-22.1) (the existing
FBAR reporting mechanism). It also made the form applicable to all U.S. citizens and residents,
not just taxpayers. With the passage of the Tax Reform Act of 1976, the IRS’ responsibility was
generally limited to FBAR processing operations. However, from 1992 to 2003, authority over
the FBAR has slowly reverted to the IRS (See Appendix IV for a description of FBAR
authorities.)
As a result of these authoritative changes, the IRS is now responsible for:
    •    The education related to FBAR filings.
    •    Revisions to the FBAR Form TD F 90-22.1 and its instructions.
    •    Civil and criminal enforcement of FBAR provisions.
    •    Receipt and processing of FBAR Form TD F 90-22.1 into the Currency Banking and
         Retrieval System (CBRS).5
    •    Proposing to the Financial Crimes Enforcement Network (FinCEN) revisions to the
         regulations in 31 Code of Federal Regulations (C.F.R.) Part 103 to further enhance
         enforcement of 31 United States Code (U.S.C.) § 5314.
In addition, the IRS’ Office of Chief Counsel will provide legal advice, interpretation, and
assistance to IRS officers and employees on all matters pertaining to the FBAR. The IRS’ Chief
Counsel will also advise on, prepare, or issue administrative rulings and proposals for regulatory
revisions, including consulting with the FinCEN’s Office of Chief Counsel. The FinCEN
retained its authority to draft regulations for the FBAR.
On March 18, 2010, the President signed the Hiring Incentives to Restore Employment (HIRE)
Act6 that contains a provision that will both complement and contrast with the FBAR filing
requirement. Specifically, § 511 of the HIRE Act added § 6038D to Title 26 of the U.S.C., the
Internal Revenue Code, requiring individual taxpayers with an aggregate balance of more than
$50,000 in foreign financial assets to file a statement with his or her income tax return. Unlike
the FBAR information, which originates under Title 31 of the U.S.C. and normally is not
permitted to be verified against tax return or tax return information due to privacy and disclosure
concerns, the new provision under I.R.C. § 6038D will have none of these restrictions. This
change will allow the IRS to use its full complement of tools to verify the information or lack of
information filed. The legislative history of the FBAR stresses that its broad, primary purpose is


5
  The CBRS is a system of databases operated and maintained by the IRS on which information from both
paper-filed and electronically filed forms (required by the BSA) reside for research by Federal, State, and local law
enforcement organizations.
6
  Pub. L 111-147.
                                                                                                              Page 2
                            New Legislation Could Affect Filers of the
                          Report of Foreign Bank and Financial Accounts,
                            but Potential Issues Are Being Addressed



intended to be a resource to combat white-collar crime and not just the narrower objectives of the
Internal Revenue Code.
This review was performed at the IRS National Headquarters in Washington, D.C., in the
Criminal Investigation Division, Large and Mid-Size Business Division, Office of Chief
Counsel, and Small Business/Self-Employed (SB/SE) Division and the Enterprise Computing
Center (ECC) in Detroit, Michigan, during the period April through June 2010. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objectives,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 3
                                 New Legislation Could Affect Filers of the
                               Report of Foreign Bank and Financial Accounts,
                                 but Potential Issues Are Being Addressed




                                       Results of Review

The Internal Revenue Service Is Engaged in Public and Employee
Awareness Activities on the Filing of the Report of Foreign Bank and
Financial Accounts
Individuals required to file the FBAR form are defined as a      Each United States person who
United States person7 who has a financial interest in or           has a financial interest in or
signature or other authority over any foreign financial         signature or other authority over
accounts, including bank, securities, or other types of             a foreign financial account
                                                                  exceeding   $10,000 at any time
financial accounts in a foreign country,8 if the aggregate        during the calendar year must
value of these financial accounts exceeds $10,000 at any             file an FBAR on or before
time during the calendar year. These individuals must            June 30 of the succeeding year.
report that relationship each calendar year by filing this
report with the Department of the Treasury on or before
June 30 of the succeeding year. FBAR filers send the reports to the IRS’ Enterprise Computing
Center (ECC) where they are received, numbered,9 and perfected.10 The reports are then shipped
to a private contractor who transcribes the data. The information from the FBAR is then
downloaded and posted onto the CBRS for use by Federal and State criminal, tax, and other
government regulatory agencies.




7
  The term “United States person” means a citizen or resident of the United States or a person in and doing business
in the United States. A “person” is defined in 31 C.F.R. § 103.11(z) as an individual, a corporation, a partnership, a
trust or estate, a joint stock company, an association, a syndicate, a joint venture or another unincorporated
organization or group, an Indian Tribe, and all entities cognizable as legal personalities. “United States” is defined
in 31 C.F.R. § 103.11(nn) as the States of the United States, the District of Columbia, the Indian lands, and the
Territories and Insular Possessions of the United States. To address concerns raised about a change in the definition
of United States person appearing in the instructions to October 2008 revision of the FBAR. The IRS issued
guidance to FBAR filers advising them to rely on the early definition found in the instructions to July 2000 version
of the form in making their reports for 2009 and earlier calendar years. The July 2000 instructions describe the term
“United States person” to mean (1) a citizen or resident of the United States, (2) a domestic partnership, (3) a
domestic corporation, or (4) a domestic estate or trust. See Announcement 2009-51, 2009-25 I.R.B. 1150, and
Announcement 2010-16, 2010-11 I.R.B. 450.
8
  A “foreign country” includes all geographical areas located outside the United States as defined in
31 C.F.R. § 103.11(nn).
9
  FBAR reports are individually numbered with a document locator number.
10
   FBAR report entries are standardized and then reviewed for accuracy.
                                                                                                              Page 4
                              New Legislation Could Affect Filers of the
                            Report of Foreign Bank and Financial Accounts,
                              but Potential Issues Are Being Addressed



The transcribed documents are returned to the ECC, where they are temporarily stored before
being sent for final storage at a Federal Records Center. Based on our prior audit,11 the SB/SE
Division established a Quality Review process to perform periodic statistically valid reviews of
documents input to the CBRS database to identify any problems, determine their cause, and
implement appropriate corrective actions. The Program Manager, Currency Transaction Report
Operations, at the ECC informed us on June 3, 2010, that the recommended change in control
from our prior report remains in place and continues to provide beneficial information to identify
and correct problems with FBAR report processing and transcription.

Revisions to the Report of Foreign Bank and Financial Accounts
With the delegation of civil enforcement authority from the FinCEN to the IRS in April 2003,
the IRS’ SB/SE Division was given the task of revising the FBAR Form TD F 90-22.1 and its
instructions. Prior to handing over the effort to revise the form, the FinCEN had gathered
comments from FBAR filers indicating that an updated form should eliminate duplicate
information in the form, incorporate user-friendly instructions, use understandable definitions,
contain a continuation sheet for use by multiple filers, address procedures for joint accounts of
spouses or business partners, and include updated terminology and more examples of the types
of financial accounts that are to be reported on the FBAR.
During the 2003 and 2004 FBAR filing periods, the IRS gathered additional information from
the following sources to determine areas of confusion in completing the form:
     •   Questions received from FBAR filers.
     •   Questions and comments from the IRS’ FBAR examiners.
     •   Requests for clarification from tax practitioners of what should be reported, and by
         whom, as well as requests to consider new exceptions to the current requirements.
     •   Requests from various groups to be exempted from the filing requirements.
     •   Responses to IRS correspondence regarding errors on FBAR filings.
In addition, requests from the public clarified for the FinCEN and the IRS that the new form and
instructions needed to explain and expand, if possible, the filing exceptions for persons with no
financial interest in, but signature or other authority over, foreign financial accounts. Based on
all the information gathered by the IRS and the FinCEN, the FinCEN and the IRS prepared a
revised FBAR form and related instructions. In early Calendar Year 2006, a revised form and
instructions were published on the IRS web site and in the Federal Register for public comment.
As a result, a revised FBAR Form TD F 90-22.1 modifying several aspects of the FBAR form

11
  The Detroit Computing Center Adequately Processed Paper Bank Secrecy Act Documents, but Quality Reviews
Should Be Implemented to Ensure Compliance With Quality Standards (Reference Number 2004-30-070, dated
March 9, 2004).
                                                                                                    Page 5
                                 New Legislation Could Affect Filers of the
                               Report of Foreign Bank and Financial Accounts,
                                 but Potential Issues Are Being Addressed



and instructions was issued in October 2008. An electronic version of the FBAR form is under
development jointly by the FinCEN and the IRS for future use.

Education and outreach activities encouraging filing compliance
In prior FBAR reports to Congress,12 it was recommended by the Secretary of the Treasury to
implement outreach and education efforts to improve compliance with the FBAR reporting
requirements. The IRS received delegation of civil enforcement authority from the FinCEN in
April 2003 and, therefore, became responsible for assessing better education and guidance on
FBAR filing requirements and implementing improvements.
In CY 2003, the SB/SE Division’s Taxpayer Education and Communications Unit created the
brochure, Do You Have a Foreign Financial Account? (Publication 4261). Additionally, IRS
educational and outreach activities have been extensive. Using CY 2008 as an example, the
following outreach events occurred:
       •   The International Office, Large and Mid-Size Business Division, conducted four
           presentations to the American Bar Association addressing FBARs and civil penalties.
           Attendees estimated at 240 attorneys.
       •   The Large and Mid-Size Business Division conducted an additional 12 seminars on
           FBAR filing requirements at 6 IRS Nationwide Tax Forums with approximately
           150 attendees at each session.
       •   The Large and Mid-Size Business Division also made 2 presentations on the FBAR filing
           requirement to the National Association of Enrolled Agents, which included
           approximately 80 participants.
       •   The Office of Stakeholder Liaison, SB/SE Division, conducted 4 FBAR-related outreach
           events attended by more than 600 tax practitioners, including one event that addressed the
           directors of 20 national practitioner associations.
       •   The IRS Criminal Investigation Division made several presentations to the American Bar
           Association addressing FBAR compliance and voluntary disclosure issues.
       •   On October 28, 2008, the Director, Fraud/BSA, SB/SE Division, participated in a panel
           discussion on FBAR compliance at the 2008 Annual University of California
           Los Angeles Tax Controversy Institute, which was attended by approximately 300 tax
           practitioners.
       •   On October 28, 2008, the BSA staff members discussed the new FBAR form at a meeting
           of the FBAR Task Force, a subgroup of the International Tax Technical Resource Panel
           of the American Institute of Certified Public Accountants.

12
     Required by § 361(b) of the USA PATRIOT Act, Pub. L. 107-56.
                                                                                              Page 6
                                          New Legislation Could Affect Filers of the
                                        Report of Foreign Bank and Financial Accounts,
                                          but Potential Issues Are Being Addressed



In addition to the CY 2008 events, the IRS issued a news release, assisted in answering
individual taxpayer’s FBAR questions, and assisted with an FBAR article published by the
Journal of Tax Practice & Procedure.13 Also, the IRS Currency Transaction Report Operations in
the Fraud/BSA Unit established a toll-free telephone line to address FBAR questions from the
public and received 5,213 inquiries. The Currency Transaction Report Operations also handled
64,089 FBAR written inquiries, most of which were responses to correspondence generated by
the ECC regarding FBAR filings.

Report filings and compliance activities increased from Calendar Year 2004 to
2009
Since the IRS assumed civil compliance efforts in April 2003, the number of FBAR filers has
continued to increase each year. Specifically, between Calendar Years 2004 and 2009, the
number of FBARs filed increased 145 percent from 217,699 to 534,043 (see Figure 1).
                               Figure 1: Report Filings – Calendar Years 2004 to 2009

                     600,000
                     500,000
     Reports Filed




                     400,000
                     300,000
                     200,000
                     100,000
                          0
                                 2004       2005       2006            2007            2008            2009
                                                          Calendar Year


Source: IRS Information Provided to FinCEN

The IRS and the FinCEN currently do not have an established method to estimate the potential
population of required filers.14 First and foremost, the FBAR filing program relies on
self-reporting. Persons trying to hide money abroad often open their financial accounts in
jurisdictions well known for their bank secrecy laws. In addition, some of these jurisdictions do



13
   Steven Toscher and Michel R. Stein, “FBAR Enforcement Five Years Later,” Journal of Tax Practice &
Procedure, (June-July 2008): pages 37–58.
14
   In April 2002, the Department of the Treasury reported to Congress that as many as 1 million U.S. taxpayers may
be required to file FBARs; however, the IRS notified the Treasury Inspector General for Tax Administration during
this review that the estimate could not be relied upon because factors used in making the original estimate were later
found to have no actual correlation to the population.
                                                                                                              Page 7
                                 New Legislation Could Affect Filers of the
                               Report of Foreign Bank and Financial Accounts,
                                 but Potential Issues Are Being Addressed



not have Mutual Legal Assistance Treaties15 with the United States, while others that may have
treaties providing for disclosure of relevant information do so only under strict and specific
circumstances. Therefore, third-party information that does exist and might be useful in
developing a population estimate or be used in some form as part of a matching program with the
FBAR data is often of limited value or is unavailable due to legal restrictions.
When the IRS is conducting compliance activities under its delegated authority from the FinCEN
regarding the FBAR, it is acting as the FinCEN’s agent and it is not normally permitted to use
tax return or tax return information gathered under Title 26. This stipulation is because the
authority to enforce the FBAR filing requirements is derived from delegations of authority from
the FinCEN and is wholly independent from the IRS’ tax administration enforcement authority
under Title 26. Under the basic principles of agency law, a principal (the FinCEN) may not
delegate to its agent or nominee (the IRS) authority that it does not possess. Because the
FinCEN could not access or disclose tax return or tax return information for purposes of
enforcing the FBAR provision of Title 31 unless a related statute determination is made, the
FinCEN cannot achieve that same purpose by delegating enforcement authority to the IRS. As a
result, when the IRS is operating solely on its delegated authority from the FinCEN while
enforcing FBAR provisions, it is precluded from using tax return or tax return information or
information systems derived from that information. Therefore, not only does the IRS have
separate examination guidelines in the Internal Revenue Manual for FBAR examinations,16 it has
also been required to develop FBAR processing and inventory case control systems separate and
apart from the tax return processing and examination return control systems. The IRS is
permitted to use return information in a limited case-by-case basis for FBAR compliance
purposes only if a related statute determination is made that the information needed in the FBAR
case is also relevant to the ongoing income tax examination.
Based on its FBAR authority from the FinCEN, the IRS operated two Compliance Initiative
Projects.17 In one initiative, a test group of 117 individuals was identified that had not filed an
FBAR, but filed another BSA report that indicated they might have an FBAR filing requirement.
Letters were sent to the test individuals asking them to respond to indications of a potential
FBAR filing liability. Of the 117 letters mailed, 26 were returned undeliverable. Of the
91 letters not returned, 25 responses were received with 3 people filing 5 FBAR reports. Due to
the small and non-statistical nature of the sample size, the IRS does not consider the results
meaningful and, therefore, closed the initiative. During our review, the IRS advised us they plan
to conduct additional work in this area in the future.

15
   Mutual Legal Assistance Treaties are bilateral treaties for criminal matters that seek to improve the effectiveness
of judicial assistance and to regularize and facilitate procedures.
16
   Internal Revenue Manual 4.26.16, Report of Foreign Bank and Financial Account (FBAR) and Internal Revenue
Manual 4.26.17, Report of Foreign Bank and Financial Accounts (FBAR) Procedures.
17
   A Compliance Initiative Project is any activity involving contact with specific taxpayers and collection of
taxpayer data within an Examination function group, using either internal or external data to identify potential areas
of noncompliance with the Examination function group, for the purpose of correcting the noncompliance.
                                                                                                              Page 8
                                         New Legislation Could Affect Filers of the
                                       Report of Foreign Bank and Financial Accounts,
                                         but Potential Issues Are Being Addressed



A second initiative for FBAR compliance is the FBAR Stop Filer Project. This Project identifies
individuals who filed FBAR reports in prior calendar years, but did not file in the current year.
Correspondence is generated to remind those identified individuals that an FBAR filing may be
required if the account(s) still exist. The SB/SE Division’s Fraud/BSA Unit staff at the ECC is
coordinating with the IRS Information Technology Office to develop an automated system
within the CBRS that identifies individuals who filed in prior calendar years, but not in the
current year. There are no results yet for this initiative as it is still being worked.
Between Fiscal Years 2004 and 2009, FBAR-related examinations created a 96 percent increase
(from 334 to 656) in FBAR civil examinations. In addition, Examination function FBAR penalty
assessments grew from $4.2 million to $20.5 million, an increase of 388 percent over the same
period, while FBAR penalty collections grew from $1.8 million to $9.8 million, an increase of
444 percent (see Figure 2). Between Calendar Years 2007 and 2009, criminal sentencings for
failure to file an FBAR declined from four to two.
                            Figure 2: The Report of Foreign Bank and Financial Accounts
                                 Civil Examinations, Assessments, and Collections
                                            (Fiscal Years 2004 to 2009)

                      700                                                                        $25
                      600
   Reports Examined




                                                                                                 $20
                      500




                                                                                                       Millions
                      400                                                                        $15
                      300                                                                        $10
                      200
                                                                                                 $5
                      100
                       0                                                                         $0
                              2004      2005           2006        2007     2008          2009
                                                         Fiscal Year
                                        Examinations          Assessments   Collections

Source: 2004, 2005, and 2006 Reports to Congress in Accordance with Section 361(b) of the PATRIOT Act and
IRS Information Provided to FinCEN.

Actions Are Being Taken to Address Taxpayers’ Concerns With New
Foreign Reporting Requirements
On March 18, 2010, the President signed the HIRE Act, containing the Foreign Account Tax
Compliance Act, into law. Section 511 of the HIRE Act added I.R.C. § 6038D, requiring an
individual taxpayer with foreign financial assets with an aggregate balance exceeding $50,000

                                                                                                       Page 9
                                 New Legislation Could Affect Filers of the
                               Report of Foreign Bank and Financial Accounts,
                                 but Potential Issues Are Being Addressed



during a taxable year to file a disclosure statement with his or her income tax return for that
taxable year. The new law requires that the disclosure statement describes the maximum value
of the assets during the taxable year. The disclosure statement should also provide the following
information in the case of a:
     1. Financial account – the name and address of the foreign financial institution in which
        such account is maintained and the number of such account.
     2. Stock or security – the name and address of the foreign issuer and such information as is
        necessary to identify the class or issue of which such stock or security is part.
     3. Contract, interest, or other instrument – such information as is necessary to identify such
        contract, interest, or other instrument and the names and addresses of all foreign issuers
        and counterparties with respect to such contact, interest, or other instrument.
The IRS is in the process of developing procedures and releasing guidance to implement these
new Foreign Account Tax Compliance Act provisions. On April 19, 2010, the Department of the
Treasury and the IRS asked for public comment regarding guidance projects and issues
concerning interpretation and implementation of the new provisions.18 Unlike its FBAR
compliance efforts that rely on delegated authority from the FinCEN and that are restricted due
to concerns in the use of tax return or tax return information under I.R.C. § 6103, the new
provision under I.R.C. § 6038D eliminates these concerns and allows the IRS to use its own tax
administration authority. This authority should allow the IRS to develop a matching system
where it can verify the I.R.C. § 6038D data against the Automatic Exchange Information
Program19 data to identify undisclosed accounts or assets.
While there are benefits to the IRS using its own tax administration authority, I.R.C. § 6038D is
not a cure. Many of the problems encountered with the FBAR will continue to plague the new
provision as well. For example:
     •   The IRS will face the same problem with the new provision as it does with the FBAR
         provision as there is no easy method to determine what constitutes the potential
         population filing base.
     •   The new provision will be self-reported, similar to the FBAR. Therefore, persons trying
         to hide money abroad will open financial accounts in jurisdictions well known for their
         bank secrecy laws where they do not exchange information with the United States,
         making it unlikely that these accounts will ever be reported.



18
   Announcement 2010-22, 2010-16 I.R.B. 602.
19
   The Automatic Exchange Information Program works through operation of U.S. income tax treaties, in which a
treaty partner will send income data on income earned on the treaty partner’s soil by U.S. addressees and the U.S.,
will send income data on income earned in the U.S. by addressees of the treaty partner.
                                                                                                            Page 10
                                  New Legislation Could Affect Filers of the
                                Report of Foreign Bank and Financial Accounts,
                                  but Potential Issues Are Being Addressed



Another problem is that many taxpayers will find that their filing requirements will not only have
increased, but also become considerably more complicated as a result of the addition of
I.R.C. § 6038D. For example:
       •   Taxpayers not only will be required to file the new information for I.R.C. § 6038D, but
           they may also be required to file an FBAR.
       •   Taxpayers may also find that certain terms are defined differently in the BSA regulations
           and the Internal Revenue Code. For example, the term United States is defined in the
           BSA regulations as …the States of the United States, the District of Columbia, the Indian
           lands, and the Territories and Insular Possessions of the United States.20 While in the
           I.R.C. it is defined as “United States” when used in a geographical sense includes only
           the States and the District of Columbia.21
       •   Complexity will also be encountered because of the differences between the FBAR
           requirements and I.R.C. § 6038D; individual taxpayers in similar circumstances could
           have different reporting outcomes. (See Appendix V for the differences with these two
           provisions.)
The following example demonstrates the potential differences in these two provisions:
           Two individual taxpayers owning foreign stocks worth $55,000 can end up with entirely
           different reporting outcomes. One taxpayer that owns $55,000 in foreign stocks through
           a foreign stock brokerage account would be required to file both an FBAR and complete
           the I.R.C. § 6038D disclosure on his or her tax return, while the other taxpayer that held
           $55,000 worth of foreign stocks issued by a person other than a U.S. person outside of a
           foreign financial account would only be required to complete the I.R.C. § 6038D
           disclosure on his or her tax return. In this example, if the amount the stock is worth is
           reduced from $55,000 to $45,000, the first taxpayer is only required to file an FBAR and
           the second taxpayer is not required to file a disclosure of any type.
The IRS continues to make progress in compliance, education, and outreach programs for the
FBAR that are resulting in increased FBAR filings despite the legal impediments that exist. The
new reporting provision under I.R.C. § 6038D should remedy many of the current legal
restrictions that the IRS now faces when using the FBAR provision or FBAR data in tax
investigation of foreign financial accounts that result from the interaction of the disclosure
provisions of Title 26, I.R.C. § 6103, with Title 31. This change should permit the IRS to use its
full range of tax administration tools on tax investigations for foreign financial accounts with
balances of more than $50,000. However, taxpayers with foreign financial assets may face
additional complexity and burden resulting from an additional layer of the new disclosure
requirements. We intend to continue to follow the IRS’ progression with addressing the FBAR

20
     31 C.F.R. § 103.11(nn) (2010).
21
     I.R.C. § 7701(a)(9) (2010).
                                                                                              Page 11
                           New Legislation Could Affect Filers of the
                         Report of Foreign Bank and Financial Accounts,
                           but Potential Issues Are Being Addressed



reporting requirements and their impact on U.S. citizens, residents, and businesses. As
appropriate, we will consider performing a followup review in the future to ensure compliance
with the laws and regulations.




                                                                                        Page 12
                                    New Legislation Could Affect Filers of the
                                  Report of Foreign Bank and Financial Accounts,
                                    but Potential Issues Are Being Addressed



                                                                                      Appendix I

           Detailed Objectives, Scope, and Methodology

Our overall objectives were to assess the policies and guidelines in place over information
gathered with the Report of Foreign Bank and Financial Account (FBAR) by the Department of
the Treasury and determine how the IRS is monitoring and improving compliance with the
FBAR filing. To accomplish our objectives we:
I.         Reviewed the history surrounding the FBAR and the IRS’ history in administering it by:
           A. Reviewing the committee reports and other pertinent information regarding passage
              of the Bank Secrecy Act of 19701 that established the FBAR.
           B. Reviewing the changes to the FBAR and FBAR administration brought about due to
              revision of I.R.C. § 6103 concerning disclosure of tax return and tax return
              information in the Tax Reform Act of 1976.2
           C. Reviewing the delegation orders that transferred authority to the IRS for
              administering the FBAR.
II.        Identified and reviewed the legal requirement in the United States Code and Combined
           Federal Regulations requiring information in the FBAR and the civil and criminal penalty
           provisions for failure to file the FBAR or maintain the information.
III.       From information provided by the IRS, determined:
           A. The number of FBARs filed annually between CY 2004 and CY 2009.
           B. The number of civil FBAR examinations closed annually between FY 2004 and
              FY 2009.
           C. The number of civil FBAR enforcement actions closed annually between FY 2004
              and FY 2009 resulting in no action, a warning letter, or civil penalties.
           D. The number of criminal sentencings obtained between CY 2004 and CY 2009.
           E. Reviewed Internal Revenue Manual 4.26 Bank Secrecy Act sections regarding civil
              examinations and assessments of the FBAR penalty.
           F. Reviewed the information from the CY 2002 through CY 2008 annual reports
              submitted to Congress on FBARs required by Section 361 of the Uniting and


1
    Public Law (Pub. L) 91-508.
2
    Pub. L. 94-455.
                                                                                           Page 13
                              New Legislation Could Affect Filers of the
                            Report of Foreign Bank and Financial Accounts,
                              but Potential Issues Are Being Addressed



            Strengthening America by Providing Appropriate Tools Required to Intercept and
            Obstruct Terrorism (USA PATRIOT) Act of 20013 and a draft of the CY 2009 report
            submitted to FinCEN regarding IRS taxpayer and practitioner outreach and
            educational activities.
IV.     Reviewed IRS activities to use other Title 31 information and reports to identify
        potentially unfiled FBARs and activities to identify or determine the universe of FBAR
        filers.
V.      Reviewed pending legislative actions that the Administration and Congress were
        considering, including:
        A. Reviewed the Hiring Incentives to Restore Employment Act,4 containing the Foreign
           Account Tax Compliance Act, to determine how it would impact FBAR filers by
           comparing and contrasting the provisions.
        B. Reviewed the General Explanation of the Administration’s Fiscal Year 2010 and
           2011 Revenue Proposals (Green Book).
        C. Reviewed Senate Bill 506, the Stop Tax Haven Abuse Act.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: FBAR document processing providing
data for the CBRS and the FBAR examination and penalty assessment process in the FBAR case
tracking system at the ECC. We conducted a walkthrough of the FBAR return processing and
FBAR case processing systems at the ECC. We evaluated these controls based on information
contained in our prior audit report,5 observations, onsite interviews with management and
personnel, review of procedures, and inspection of some completed FBAR examination case
input files.




3
  Pub. L. 107-56.
4
  Pub. L 111-147.
5
  The Detroit Computing Center Adequately Processed Paper Bank Secrecy Act Documents, but Quality Reviews
Should Be Implemented to Ensure Compliance With Quality Standards (Reference Number 2004-30-070, dated
March 9, 2004),
                                                                                                   Page 14
                          New Legislation Could Affect Filers of the
                        Report of Foreign Bank and Financial Accounts,
                          but Potential Issues Are Being Addressed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Amy Coleman, Acting Director
Earl Charles Burney, Lead Auditor
Carol Gerkens, Senior Auditor




                                                                                      Page 15
                         New Legislation Could Affect Filers of the
                       Report of Foreign Bank and Financial Accounts,
                         but Potential Issues Are Being Addressed



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Deputy Commissioner for Services and Enforcement SE
National Taxpayer Advocate TA
Commissioner, Large and Mid-Size Business Division SE:LM
Division Counsel/Associate Chief Counsel (Large and Mid-Size Business Division) CC:LMSB
Division Counsel/Associate Chief Counsel (Small Business/Self-Employed Division) CC:SB
Division Counsel/Associate Chief Counsel (Tax Exempt and Government Entities) CC:TEGE
Associate Chief Counsel (International) CC:INTL
Associate Chief Counsel (Procedure & Administration) CC:P&A
Deputy Commissioner, Large and Mid-Size Business Division (International) SE:LM:IN
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Chief, Criminal Investigation SE:CI
Director, Fraud/BSA SE:S:F/BSA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Counsel
       National Taxpayer Advocate
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Criminal Investigation SE:CI




                                                                                 Page 16
                                 New Legislation Could Affect Filers of the
                               Report of Foreign Bank and Financial Accounts,
                                 but Potential Issues Are Being Addressed



                                                                                           Appendix IV

                    Authoritative Aspects of the
           Report of Foreign Bank and Financial Accounts

Year                                          Description of Authority
    1992    The Assistant Secretary of the Treasury (Enforcement) delegated authority to investigate
            possible violations of the regulations with respect to the reporting and record keeping on foreign
            bank accounts to the Commissioner of the IRS. This authority permitted the IRS Criminal
            Investigation Division to review failure to file cases identified by the IRS Examination function
            staff for possible criminal investigation. The Criminal Investigation Division would forward
            cases that it recommended for prosecution through the IRS Office of Chief Counsel, which
            would conduct its own independent review, to the Department of Justice, which would make the
            final decision to prosecute or not.
    1994    The Secretary of the Treasury delegated his authority to administer FBAR and other provisions
            of the Bank Secrecy Act of 19701 to the FinCEN, a bureau of the Department of the Treasury.
            The FinCEN’s mission is to enhance U.S. national security, deter and detect criminal activity,
            and safeguard financial systems from abuse by promoting transparency in the U.S. and
            international financial systems. The FinCEN carries out its mission as a market integrity
            regulator of the financial industry by receiving and maintaining financial transactions data,
            analyzing and disseminating that data for law enforcement purposes, and building global
            cooperation with counterpart organizations in other countries and with international bodies.
    2001    In response to the September 11, 2001, attack, Congress passed the Uniting and Strengthening
            America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism (USA
            PATRIOT) Act of 2001.2 Section 361(b) of the Act requires the Secretary of the Treasury to
            study methods for improving FBAR compliance and report to Congress each year.
    2003    The IRS was delegated authority from the FinCEN to assess and collect civil penalties;3
            investigate possible civil violations of these provisions; employ the summons power of
            31 C.F.R. Part 103, Subpart F.; issue administrative rulings under 31 C.F.R. Part 103,
            Subpart G; and take any other action reasonably necessary for the enforcement of these and
            related provisions, including injunctions.
Source: Our analysis of Treasury Directive 15-41; 2002 and 2003 Reports to Congress in Accordance with §361(b)
of the USA PATRIOT Act; and Memorandum of Agreement and Delegation of Authority for Enforcement of FBAR
Requirements, dated April 2, 2003.



1
  Public Law (Pub. L) 91-508.
2
  Pub. L. 107-56.
3
  Under 31 U.S.C. §5321 and 31 C.F.R. § 103.57
                                                                                                     Page 17
                                  New Legislation Could Affect Filers of the
                                Report of Foreign Bank and Financial Accounts,
                                  but Potential Issues Are Being Addressed



                                                                                                    Appendix V

  Comparison of 31 United States Code Section 5314
 and Internal Revenue Code Section 6038D Provisions

      Description                  31 U.S.C. § 5314 Provisions                    I.R.C. § 6038D Provisions
Type of Taxpayer              U.S. person (defined as individual,             Individual, U.S. citizen or resident alien,
                              corporation, partnership, trust or estate, a    or any domestic entity formed or availed
                              joint stock company, or other                   of for purposes of holding, directly or
                              unincorporated organization or group1)          indirectly, specified foreign financial
                              means a citizen or resident of the U.S. or a    assets.
                              person in and doing business in the U.S.
Time period covered           Any time during the calendar year.              Taxable year.
Information due date          June 30, with no extensions.                    April 15, with extensions.
Type of interest in foreign   Financial interest in, or signature authority   Any interest in foreign financial asset.
financial accounts/assets     over, foreign financial accounts.
Value making foreign          Aggregate value of financial accounts           Aggregate value of all such assets
account/asset reportable      exceeds $10,000.                                exceeds $50,000.
Type of foreign financial     Bank account, securities account, or other    1. Any financial account maintained by
accounts/assets reportable    financial account in a foreign country.          a foreign financial institution.
                              Term also includes savings, demand,           2. Any of the following assets which are
                              checking, deposit, time deposit, or other        not held in an account maintained by
                              account (including debit card and prepaid        a financial institution—
                              credit card accounts) maintained with a
                                                                               A. Any stock or security issued by a
                              financial institution or other person engaged
                                                                                   person other than a U.S. person.2
                              in the business of a financial institution.
                                                                               B. Any financial instrument or
                                                                                   contract held for investment that
                                                                                   has an issuer or counterparty
                                                                                   which is other than a U.S. person.
                                                                               C. Any interest in a foreign entity.
 Source: Our analysis of 31 U.S.C. § 5314, 31 C.F.R. § 103.11, 31 C.F.R. § 103.24, 31 C.F.R. § 103.27(c),
 Instructions to FBAR Form TD F 90-22.1, and 26 U.S.C. § 6038D.


 1
   List is not all inclusive.
 2
   I.R.C. § 7701(a)(30) United States person. The term “United States person” means (A) a citizen or resident of the
 United States, (B) a domestic partnership, (C) a domestic corporation, (D) any estate (other than a foreign estate,
 within the meaning of paragraph 31), and (E) any trust if— (i) a court within the United States is able to exercise
 primary supervision over the administration of the trust and (ii) one or more United States persons have the authority
 to control all substantial decisions of the trust (2010).
                                                                                                              Page 18
